<html>
<title> - [H.A.S.C. No. 112-87] FISCAL YEAR 2012 COMBAT AVIATION PROGRAMS UPDATE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 112-87]
 
                        FISCAL YEAR 2012 COMBAT

                        AVIATION PROGRAMS UPDATE

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            NOVEMBER 2, 2011


                                     
[GRAPHIC] [TIFF OMITTED] 

                                     



                  U.S. GOVERNMENT PRINTING OFFICE
71-526                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                 ROSCOE G. BARTLETT, Maryland, Chairman
FRANK A. LoBIONDO, New Jersey        SILVESTRE REYES, Texas
JOHN C. FLEMING, M.D., Louisiana     MIKE McINTYRE, North Carolina
TOM ROONEY, Florida                  JIM COOPER, Tennessee
TODD RUSSELL PLATTS, Pennsylvania    GABRIELLE GIFFORDS, Arizona
VICKY HARTZLER, Missouri             NIKI TSONGAS, Massachusetts
JON RUNYAN, New Jersey               LARRY KISSELL, North Carolina
MARTHA ROBY, Alabama                 MARTIN HEINRICH, New Mexico
WALTER B. JONES, North Carolina      BILL OWENS, New York
W. TODD AKIN, Missouri               JOHN R. GARAMENDI, California
JOE WILSON, South Carolina           MARK S. CRITZ, Pennsylvania
MICHAEL TURNER, Ohio                 KATHLEEN C. HOCHUL, New York
BILL SHUSTER, Pennsylvania
DOUG LAMBORN, Colorado
                John Sullivan, Professional Staff Member
                  Doug Bush, Professional Staff Member
                     Scott Bousum, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS

                                  2011

                                                                   Page

Hearing:

Wednesday, November 2, 2011, Fiscal Year 2012 Combat Aviation 
  Programs Update................................................     1

Appendix:

Wednesday, November 2, 2011......................................    21
                              ----------                              

                      WEDNESDAY, NOVEMBER 2, 2011
            FISCAL YEAR 2012 COMBAT AVIATION PROGRAMS UPDATE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bartlett, Hon. Roscoe G., a Representative from Maryland, 
  Chairman, Subcommittee on Tactical Air and Land Forces.........     1
Reyes, Hon. Silvestre, a Representative from Texas, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     3

                               WITNESSES

Carlisle, Lt. Gen. Herbert J., USAF, Deputy Chief of Staff for 
  Operations, Plans and Requirements, U.S. Air Force; and Maj. 
  Gen. Jay H. Lindell, USAF, Director, Global Power Programs, 
  Office of the Assistant Secretary (Acquisition), U.S. Air Force     5
Skinner, VADM W. Mark, USN, Principal Military Deputy to the 
  Assistant Secretary of the Navy (Research, Development, and 
  Acquisition), U.S. Navy; Lt. Gen. Terry G. Robling, USMC, 
  Deputy Commandant of the Marine Corps for Aviation, U.S. Marine 
  Corps; and RADM Kenneth E. Floyd, USN, Director of the Air 
  Warfare Division, U.S. Navy....................................     4

                                APPENDIX

Prepared Statements:

    Bartlett, Hon. Roscoe G......................................    25
    Carlisle, Lt. Gen. Herbert J., joint with Maj. Gen. Jay H. 
      Lindell....................................................    47
    Reyes, Hon. Silvestre........................................    28
    Skinner, VADM W. Mark, joint with Lt. Gen. Terry G. Robling 
      and RADM Kenneth E. Floyd..................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bartlett.................................................    65
    Mr. LoBiondo.................................................    65

Questions Submitted by Members Post Hearing:

    Mr. Bartlett.................................................    69
            FISCAL YEAR 2012 COMBAT AVIATION PROGRAMS UPDATE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                       Washington, DC, Wednesday, November 2, 2011.
    The subcommittee met, pursuant to call, at 2:38 p.m. in 
room 2119, Rayburn House Office Building, Hon. Roscoe G. 
Bartlett (chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE 
FROM MARYLAND, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Bartlett. The subcommittee will come to order. The 
Tactical Air and Land Forces Subcommittee meets today to 
receive testimony on Navy, Marine Corps and Air Force combat 
aircraft programs.
    I would like to thank our witnesses for being here today. 
They are Vice Admiral Mark Skinner, a Principal Military Deputy 
to the Assistant Secretary of the Navy for Research, 
Development and Acquisition; Lieutenant General Terry Robling, 
Marine Corps, Deputy Commandant of the Marine Corps for 
Aviation; Rear Admiral Kenneth Floyd, Navy, Director of the Air 
Warfare Division, the U.S. Navy; Lieutenant General Herbert J. 
Carlisle, U.S. Air Force, Deputy Chief of Staff for Operations, 
Plans and Requirements; Major General Jay Lindell, Air Force, 
Director of Global Power Programs, Office of the Assistant 
Secretary of the Air Force for Acquisition.
    This is the third in a series of hearings we are holding 
for the purpose of updating our Members on the budget request 
for fiscal year 2012. The potential impact of the Budget 
Control Act of 2011 on our military capability is a major 
concern of this subcommittee. Today we will address combat 
aviation programs to hear from our witnesses about potential 
impacts of budget decisions on our deterrence and combat 
capability. It would be better had the Department of Defense 
provided the Services an updated national military strategy and 
a projection of resources likely to be available so the 
Services could better plan their programs. Absent this, 
hearings such as this might be described as an exercise in 
futility, because we do not know what the national strategy is, 
and we have no idea how much money we will have to prosecute 
that strategy.
    As I stated before, major reductions in the Federal budget 
need to be a major element of correcting the Federal deficit. 
The Department of Defense must share in a fair and balanced way 
in those reductions, and that process is already taking place 
under the Budget Control Act of 2011 with nearly $500 billion 
in cuts planned for DOD [Department of Defense] over the next 
10 years.
    Under the sequestration provisions of the Budget Control 
Act, further cuts, up to a total of $1 trillion over 10 years, 
could be possible under what Secretary Panetta has called the 
``doomsday mechanism.'' Indeed, the Air Force statement for 
this hearing warns that ``reductions imposed by the 
implementation of sequestration rules would have a significant 
adverse impact on the ability of the United States Air Force to 
perform the missions to which it is presently assigned.''
    We have much to cover today, but a major issue is the 
strike fighter aviation in the Navy, Marine Corps and Air 
Force. Much of the future of America's strike fighter aviation 
hinges on the development and production of the F-35. Through 
September, overall, the F-35 program, based on the current 
revised schedule, is ahead of the number of flight test hours 
and achievements of test points for the F-35A and the F-35C 
planned for calendar year 2011. The F-35B is slightly behind 
those benchmarks thus far; however, the F-35B recently 
completed its initial development sea trials aboard the USS 
Wasp, which reportedly went quite well. But the F-35 program 
continues to experience additional costs from the elements of 
concurrent development and production activities, and we 
continue to feel both the financial effects and the operational 
effects of this concurrent program. Projecting the costs 
related to concurrency have proved challenging.
    Although funds were appropriated in April for fiscal year 
2011 F-35 aircraft procurement, the contract for those aircraft 
has not been completed between the Government and the 
contractor. We understand that one of the major reasons for 
there not yet being a signed contract for fiscal year 2011 is 
the inability for the Government and the contractor to agree on 
what the concurrency costs are likely to be, whether these 
costs should be shared, and, if shared, how should they be 
shared.
    Funding for 35 F-35 aircraft was appropriated for fiscal 
year 2011, but we understand the Department is likely to 
procure only 30 aircraft because some funds will be required to 
pay for cost overruns in the first three production lots and to 
potentially pay for concurrency modifications expected for the 
fiscal year 2011 aircraft.
    Although four of the first operational F-35A aircraft were 
recently delivered to Eglin Air Force Base, we understand that 
there is some disagreement within the Department of Defense on 
whether the operational F-35A aircraft at Eglin Air Force Base 
are ready to begin an operational utility evaluation that would 
assess the readiness of the F-35A to begin a training program 
beyond an initial cadre of operational pilots. We understand 
that this evaluation had been scheduled to begin this month. 
Some say there are safety concerns; others say those concerns 
have been addressed. We hope our Air Force witnesses today can 
help us understand when the Air Force plans to begin the F-35 
operational utility evaluation.
    Additionally, most Members will recall that at our National 
Guard and Reserve component hearing on October 12th, General 
Wyatt, the Director of the Air National Guard, testified that 
he had not received the plan for recapitalizing the Air 
National Guard's fighter fleet, which is of particular concern 
to those units conducting Aerospace Control Alert missions. As 
a result, Mr. LoBiondo and I formally requested that the 
Secretary of the Air Force provide both the committee and 
General Wyatt with a comprehensive plan before the end of this 
year for modernizing the Air National Guard's Aerospace Control 
Alert mission fleet and applicable fighter wings. We hope our 
witnesses can provide us with an update on the progress of that 
effort today.
    Before we begin, let me call on the ranking member of the 
subcommittee, Mr. Reyes, for his opening remarks.
    [The prepared statement of Mr. Bartlett can be found in the 
Appendix on page 25.]

STATEMENT OF HON. SILVESTRE REYES, A REPRESENTATIVE FROM TEXAS, 
  RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

    Mr. Reyes. Thank you, Mr. Chairman. And thank you, 
gentlemen, for joining us here this afternoon.
    Today's hearing on combat aviation programs occurs just as 
the Pentagon is weighing some major strategic decisions that 
could greatly impact aircraft programs. Among those decisions 
are how much we are willing to invest in maintaining our 
current dominance in the air.
    No other nation in the world can match us today in terms of 
our capability to project air power, so most didn't even try. 
For example, in Afghanistan today, U.S. commanders get close 
air support--aircraft cover over any target in less than 15 
minutes. That remarkable capability doesn't just happen, it 
requires an array of tanker aircraft, combat search and rescue, 
communications, and other systems all working in concert.
    The United States also fields hundreds of unmanned systems 
that didn't exist back in 2001. The intelligence provided by 
those platforms has become an essential part of almost all 
ground operations in Afghanistan. However, this dominance is 
not permanent. China, Russia and other nations are developing 
systems to challenge our current dominance, and in a future 
conflict, we may not be able to operate like we can today in 
Afghanistan. So the Air Force, Navy and Marine Corps face the 
challenge of maintaining today's forces in combat while also 
laying the groundwork for the future.
    In the area of air power, finding this balance can be 
extremely difficult because it takes many years to design, to 
field and to learn how to operate new aircraft.
    This hearing will also cover DOD's largest single 
acquisition program, the F-35 Joint Strike Fighter, as the 
chairman mentioned. Based on testimony, budget documents and 
reports received by this committee, it is clear that the 
program is facing significant development challenges. However, 
despite the program's challenges, I want to go on record as 
saying I support it. I support the program because in the 
future there is a very good chance that our military will have 
to overcome sophisticated air defense systems, and the only way 
to do that is with a combination of fifth-generation stealth 
aircraft and other advanced systems.
    If we walk away from the F-35 program, we simply won't be 
able to project power in many areas of the world in the future. 
To me that possibility is not acceptable. So I think it is 
critical that we find a way forward with the F-35 that gets us 
what we need, which is an affordable fifth-generation aircraft 
that we can procure in large numbers. That might require 
changing the program to some degree, but the program has to 
move forward because the threat to continued American dominance 
in the air is real, and it is growing. So I look forward to 
today's hearing and hearing the testimony of our witnesses.
    And with that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Reyes can be found in the 
Appendix on page 28.]
    Mr. Bartlett. Thank you very much.
    Without objection, all the witnesses' prepared statements 
will be included in the hearing record.
    Admiral Skinner, please proceed with your opening remark, 
and you will be followed by General Robling, Admiral Floyd, 
General Carlisle and General Lindell.

  STATEMENT OF VADM W. MARK SKINNER, USN, PRINCIPAL MILITARY 
   DEPUTY TO THE ASSISTANT SECRETARY OF THE NAVY (RESEARCH, 
  DEVELOPMENT, AND ACQUISITION), U.S. NAVY; LT. GEN. TERRY G. 
   ROBLING, USMC, DEPUTY COMMANDANT OF THE MARINE CORPS FOR 
 AVIATION, U.S. MARINE CORPS; AND RADM KENNETH E. FLOYD, USN, 
        DIRECTOR OF THE AIR WARFARE DIVISION, U.S. NAVY

    Admiral Skinner. Chairman Bartlett and Ranking Member 
Reyes, distinguished members of the committee, it is our honor 
to appear before you today to discuss the Department of the 
Navy's aviation procurement programs. My oral remarks will be 
for myself, Lieutenant General Robling and Rear Admiral Floyd. 
Testifying alongside me today as we did on March 15th are my 
colleagues, and with the permission of the committee, I propose 
to keep our combined Navy and Marine Corps oral remarks brief 
and submit our combined statement for the record. Following our 
remarks, General Carlisle will provide opening remarks for the 
Air Force.
    For the past 100 years, naval aviation has combined 
innovation, commitment and courage to build a versatile and 
formidable force providing this Nation's global presence from 
the sea and from the air. The President's fiscal year 2012 
budget requests funds to develop, procure and sustain naval 
aviation to meet an ever-changing and complex threat. Many of 
our existing legacy aircraft and tactical systems are nearing 
the end of their service life or will not meet tomorrow's 
threat.
    We also recognize our Nation is in the midst of a financial 
crisis, and we are committed to working more efficiently and 
cost-effectively in this budget-constrained environment. All 
areas of the budget are being reviewed, and as the Secretary of 
Defense has stated, nothing is off the table.
    We firmly believe reductions must be implemented 
thoughtfully, strategically and ever mindful of the lessons of 
the past. We must not sacrifice the development of advanced 
technologies and capabilities, procurement of aircraft and 
integrated systems, and sustainment of the fleet. We will meet 
our Nation's budget challenges by integrating better buying-
power initiatives and should-cost parameters early in a 
program's development where tradeoffs can make the most 
difference in lifecycle costs, and changing contract structure 
and types, ensuring we get the most product for the warfighter. 
We are targeting affordability in development, procurement and 
sustainment. We will ensure that over the next 100 years, we 
will be as successful as we have been in the past, and remain 
committed to maintaining our Navy as the world's preeminent 
maritime force.
    It is our privilege today to testify before you, and we 
look forward to answering your questions.
    [The joint prepared statement of Admiral Skinner, General 
Robling and Admiral Floyd can be found in the Appendix on page 
29.]
    Mr. Bartlett. Thank you very much.
    Our hearing room is not equipped with the world's best 
microphones, so for best results, if you will hold it very 
close and speak directly into it.
    General Robling.
    General Robling. Sir, we are going to use Vice Admiral 
Skinner's remarks as the statement. I think we can go on to the 
Air Force.
    Mr. Bartlett. General Carlisle.

 STATEMENT OF LT. GEN. HERBERT J. CARLISLE, USAF, DEPUTY CHIEF 
   OF STAFF FOR OPERATIONS, PLANS AND REQUIREMENTS, U.S. AIR 
  FORCE; AND MAJ. GEN. JAY H. LINDELL, USAF, DIRECTOR, GLOBAL 
       POWER PROGRAMS, OFFICE OF THE ASSISTANT SECRETARY 
                 (ACQUISITION), U.S. AIR FORCE

    General Carlisle. Chairman Bartlett, Ranking Member Reyes 
and distinguished members of the subcommittee, thank you for 
the opportunity to provide an update on Air Force's tactical 
rotary wing and intelligence, surveillance and reconnaissance 
aviation programs. I am joined this morning by my good friend 
Major General Jay Lindell, the Director of Global Power 
Programs for the Office of the Assistant Secretary of the Air 
Force for Acquisitions.
    With your indulgence, Mr. Chairman, I would like to take a 
moment to recognize this true patriot, Jay Lindell, who is 
retiring later this month after 33\1/2\ years of dedicated 
service to our country. Since July 1, 1974, the first day Jay 
and I actually met each other as freshmen at the U.S. Air Force 
Academy, it has been my distinct honor and privilege to serve 
beside this great American.
    Thank you, Mr. Chairman. I appreciate that opportunity.
    Today the Air Force is fully engaged in operations around 
the globe supporting the joint fight while simultaneously 
maintaining our homeland presence in support of Operation Noble 
Eagle. I could not be prouder of the work our airmen are doing. 
Just last week General Schwartz presented the Air Force Cross 
to a combat controller, Staff Sergeant Robert Gutierrez. 
Although critically wounded, Sergeant Gutierrez continued to 
direct multiple strafing runs that resulted in the elimination 
of a high-value target and no American casualties. His story 
captures the effect air power can bring to the fight. When 
dedication, professionalism and courage are paired with 
technology, there is no limit to what we can achieve.
    This story is indicative of what airmen do on a daily basis 
and how our technical powers can be leveraged against a 
potential enemy. It is imperative that we maintain that edge 
through our modernization and acquisition programs. We look 
forward today to discussing how we can satisfy these 
requirements in an incredibly fiscally constrained environment 
to support this great Nation.
    Major General Lindell and I thank the subcommittee for 
allowing us to appear today and for your continued support to 
our airmen, their families and our entire United States 
military. We look forward to answering your question, Mr. 
Chairman.
    [The joint prepared statement of General Carlisle and 
General Lindell can be found in the Appendix on page 47.]
    Mr. Bartlett. Thank you very much. And thank you all for 
being here.
    As is my usual habit, I will reserve my questions until 
last, hoping that they will have all been asked by other 
members of our subcommittee.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Thank you for your testimony. I guess I will start off by 
asking a very basic fundamental question, but very important 
question, because most of us on this committee are very 
concerned that if the committee of 12 [Joint Select Committee 
on Deficit Reduction] does not come to some agreement that 
gives us an opportunity to vote, then automatically 
sequestration will take place. So if I can ask each one of you 
to paint a picture of exactly what will happen if, in fact, we 
don't get an agreement and we have to go to that sequestration 
process. And remember, we want to know exactly what areas, and 
what programs, and what capabilities are going to be impacted 
by that across-the-board cut.
    Admiral Skinner. Well, sir, I will lead off. Sequestration, 
as we understand it, would result in 5- to $600 billion of 
additional cuts to the Department of Defense budget. Certainly 
from an acquisition perspective and the way that the cuts would 
be implemented across our multiple accounts, it would be 
difficult to maintain certain of our acquisition programs. So 
we are looking at those contingencies now. As I mentioned in my 
opening statement, all of our programs are on the table to take 
a look at that.
    We know, though, from just a general nature that certainly 
we would have changes in our major acquisition programs, 
perhaps layoffs in our civilian workforce, and our industrial 
base would feel the impact of that. We would have contractual 
implications, perhaps breaking multiyear contracts and things 
of that nature. So sequestration from an acquisition 
perspective, at least from the Department of the Navy, would 
have serious consequences.
    Mr. Reyes. What kinds of operational consequences would it 
create for the Navy, for instance, in terms of being able to 
deploy, keep a presence in all of the different strategic parts 
of the globe?
    Admiral Skinner. Well, from an operational perspective, 
certainly as we took cuts across our readiness accounts and our 
sustainability accounts, that would have an impact on how we 
deploy, but until we got the idea of how much those cuts would 
be and then take a look at some of our contingency plans, to 
give you specifics would be difficult at this point in time. It 
is predecisional until we put the budget together and present 
it here to the Hill in February. But certainly with the defense 
cuts that we have taken to date, the cuts imposed by 
sequestration would have an impact on our budget.
    General Robling. Ranking Member Reyes, thank you for that 
question. I think all of the folks at this table will have a 
similar answer because we have all been going through budget 
drills for the last 6 to 8 months on the current budget problem 
that we are facing. And the chairman said $500 billion. I can 
tell you $500 billion for DOD, while we understand that that 
is, you know, a part of what we need to do for our Nation, to 
take those cuts is very difficult. It is painful.
    The Commandant of the Marine Corps went through his own 
Force Service Review Group, Structure Review Group. He decided 
on a middleweight force that would be 186,800. That included 24 
battalions, 21 Active Duty squadrons, 3 Reserve squadrons, 16 
vertical-lift squadrons, 8 heavy-lift squadrons, and 8 HMLA 
[Marine Light Attack Helicopter] squadrons, along with, as you 
know, the EFV [Expeditionary Fighting Vehicle] was cancelled, 
and we are looking for a replacement for that at the ACV 
[Amphibious Combat Vehicle]. So when you talk about 
sequestration going well below or past those $500 billion cuts, 
starts not only cutting into capacity, but it also cuts into 
capabilities.
    I think Marine Corps plays at both ends of the spectrum, 
both the high--even though we are the middleweight force, we 
play at the high end of the spectrum, and some of the op plans 
out in the Pacific Asia area, and, of course, out in the Middle 
East right now, and then, of course, the low end where we do 
security cooperation, and COIN [Counter-Insurgency] operations 
and those kind of things.
    So I think further cuts will be very, very difficult for 
the Marine Corps, and it will be a widely different Marine 
Corps than you have right now.
    Admiral Floyd. Thank you for the question, sir. And I echo 
my seniors' comments that they just made. I know it is 
frustrating, it is difficult to be specific not knowing exactly 
what the numbers come to be, but we know that it is going to be 
very--a significant impact across the board in amount of 
presence in our force structure, in our readiness, our 
training, shore infrastructure, travel, all the way through to 
personnel, which will be major impacts. So I think that that 
is--that would be kind of my thoughts on it based on what we 
have already heard.
    General Carlisle. Thank you, Member Reyes. Thanks for the 
question. Again, as my good friend Terry Robling said, we will 
all probably pretty much say the same thing.
    We are still struggling with the current cut, the $450 
billion cut that was laid in as part of the top line of DOD. We 
haven't got there yet, and it is incredibly challenging to get 
to that level. To think of something that would be a next level 
above that at even a greater reduction, the specifics would be 
draconian, in our opinion.
    Our Chief will tell you that when you look at the range of 
military operations that we all participate in, by definition 
the $450 billion cut, we will be able to do a lot less of that. 
Our capacity across the United States military will go down 
with the current budget that we are trying to struggle with for 
2013. The comment that our Chief and Secretary make often is if 
you think of last March when we were in Afghanistan and Iraq, 
we are doing a swap-out of some pretty big combat power there. 
At the same time we are supporting our Japan neighbors with 
their earthquake and tsunami, and we started operations in 
Libya. It is entirely possible when this budget goes into 
effect, we couldn't do that again. If that happened in 2015, we 
probably couldn't do what we did this past March.
    If we go into the sequestration, the question that we are 
struggling with within the Air Force is what are we going to 
stop doing? What of that range of military operations--because 
if we take capacity down across the board, eventually none of 
it will be effective. We will get to such a small capacity that 
we can't really accomplish the missions that we are given, so 
we would have to pick mission areas and stop doing them. You 
also heard our Chiefs talk about if we got to that point, we 
would have to take entire fleets of airplanes down. Instead of 
just a few of a bunch of different types, we would have to take 
an entire--potentially an entire fleet down. So when we think 
about sequestration, we think about things that would be asked 
of us in the future that we would no longer be able to do.
    General Lindell. Ranking Member Reyes, if I could just 
restate what Secretary Donley has commented, that we will 
definitely be a less capable, less modernized, undermanned and 
used the term ``hollow force.'' And a hollow force means that 
when General Carlisle and I started flying jets in our Air 
Force--and we entered at the same time as he commented, in 
1980--when we were on Active Duty in a mission-ready squadron, 
there was a 50 percent chance when we stepped to our jets that 
we would get in the air. And that was due to lack of parts, 
lack of engines, lack of ability to maintain the aircraft. So 
when we start talking about this sort of cuts that we have all 
commented on and potentially a hollow force, we are talking 
about a much less capable Air Force.
    Mr. Reyes. Thank you, gentlemen, for that candid 
assessment.
    I yield back, Mr. Chairman.
    Mr. Bartlett. Thank you.
    Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman, very much. And I 
would like to start off by echoing what my colleagues have said 
and thanking you for your many years of service to our Nation 
and your leadership that you have provided.
    Generals Carlisle and Lindell, as Chairman Bartlett 
indicated, he and I sent a letter to Secretary Donley last week 
outlining our concern for the lack of a formal plan to 
recapitalize the Air National Guard's Aerospace Control Alert 
mission fighter jet fleet. It is an issue we have been talking 
about for years and years and years, and we are trying to zero 
in on this for what we think is the sake of the Nation.
    With that said, we have requested that Secretary Donley 
present this subcommittee and General Wyatt with a hard copy 
version, not a promise that there is a plan, but something that 
we can actually look at and something that we can actually read 
to address this issue by the end of the year. I am hoping and 
assuming that this issue is already being discussed, and if 
that is so, is it possible to give us some insight into what we 
can expect to see in this plan with respect to the number of 
ACA [Aerospace Control Alert] units in the Air National Guard, 
and should the Air National Guard expect to have to maintain--
how do they do this in the outyears? I will start with those 
two. I have got a series of follow-up questions. I will see how 
my timing goes.
    General Carlisle. Congressman LoBiondo, thank you very much 
for that question. In fact, I understand exactly what you are 
talking about. We very recently had a very in-depth work with--
in a fairly high-level meeting that was just this past week 
with the Secretary, the Chief, the Director of the Air National 
Guard, the Director of the National Guard. General McKinley was 
there, General Stenner was there. And that is exactly the point 
we got to, and that is how we are going to modernize across the 
National Guard as well as the Air Force Reserve, how we are 
going to maintain that capability as the Reserve fleet for the 
United States Air Force.
    You will hear in the not-too-distant future the 
announcement of the plans of probably close to 350 airplane 
service life extension program for the F-16 fleet, as well as 
the modernization program for the F-16 fleet. As you well know, 
in the 2012 budget, there is money to do a service life 
extension program, to start the RDT&E [Research, Development, 
Test and Evaluation] and buy the first three ship sets, and 
also start doing the RDT&E on the avionics upgrades to these 
airplanes as well.
    So that plan is, in fact, as you had asked for, sir, is 
being worked very diligently, and how those--based on what we 
believe, we will have--the other thing that will aid this is 
the integrated master schedule for the F-35 program is--will be 
out fairly shortly, combining the F-35 with the SLEP [Service 
Life Extension Program] of the F-16s and how we are going to 
integrate the F-35 into the Guard and Reserve, as well as how 
we are going to modernize the legacy fleet of the F-16s.
    So the answer is, yes, sir, we will. As you well know, 
again, there is 18 ACA sites, and 17 of them are Air National 
Guard, and that is the plan that we are taking forward.
    Mr. LoBiondo. These preliminary options that may be on the 
table are extremely important for newer upgraded iron into 
these strategic wings. Obviously like the 177th that I 
represent and beyond the latest service life extension program, 
there is questions about how far we can go with that, what we 
can do with that, the modifications and upgrades, and, you 
know, in the event of reductions to the Air National Guard 
entire jet inventory, there are a lot of moving parts here 
which we have no understanding of how it comes together to 
present us with a comprehensive plan, and that is the anxiety 
that I am feeling here.
    General Carlisle. Yes, sir. There are a lot of moving 
parts, which, as you just stated, makes it incredibly difficult 
to get to the specifics, but we are working towards that to get 
that plan laid out.
    We are doing a full-scale fatigue test on the F-16 to 
determine those SLEP parts and what the life availability is in 
those airplanes and the avionics upgrade as well. And the F-35 
program and what that integrated master schedule looks like 
will be a big part of that, as well as some of those airplanes 
clearly are going to go to the Air National Guard, and they are 
going to Burlington already, and there will be more as well.
    Mr. LoBiondo. And, Mr. Chairman, I will have additional 
questions on the next round, but that is part of what worries 
me, because the F-35 continues to slide to the right. We 
continue to figure them in in what the Air National Guard is 
going to be able to do, and I think it might be a little bit of 
a false hope that we are going to get to any of those numbers 
that will make a difference unless you all can present 
something that makes some sense.
    And, Mr. Chairman, I thank you, and I will look forward to 
the next round.
    Mr. Bartlett. Thank you.
    Mr. Critz.
    Mr. Critz. Thank you, Mr. Chairman.
    And thank you, gentlemen, for testifying and for your 
service to our great Nation.
    I have sort of an in-the-weeds question for you, General 
Carlisle and General Lindell. I read or saw where we are going 
to be--you are going to be retiring ``Hueys'' that serve combat 
search and rescue and also domestic programs, and that you are 
moving into more of a heavy platform to do combat search and 
rescue and a commercial-off-the-shelf for the more domestic. 
Now, is this a change in direction that you are going from one 
platform to two? And what is the plan going forward? I don't 
truthfully understand.
    General Carlisle. Thank you, sir. Thanks for the question, 
sir.
    There are two airplanes now. The HH-60 does the combat 
search and rescue, and the ``Huey'' does the domestic in 
support of the nuclear fields as well as here. We are doing Ops 
Loss Replacement for the--for the HH-60s that we have lost in 
combat to get that fleet, at least to be able to sustain until 
we get a new combat search and rescue. There is a program for a 
new combat search and rescue airplane, and there is also a full 
and open competition of a commercial-off-the-shelf airplane for 
the domestic mission to include the nuclear field as well as 
here at Andrews.
    So there are two programs, and there are two airplanes 
today. The bids will allow people to bid for either one of them 
or both of them together. So we are going to design the program 
and give them that flexibility if we can.
    Mr. Critz. Okay. Thank you. It was my misunderstanding 
then.
    Going back to what Mr. LoBiondo started into was the Joint 
Strike Fighter moving to the right. Now, obviously delays in 
Joint Strike Fighter development are going to mean that you are 
going to have to keep legacy aircraft on board longer and used 
longer. Now, I was just down--and I am going to butcher the 
name. I say Beaufort. Is it Beaufort? Beaufort, General 
Robling?
    General Robling. It is Beaufort.
    Mr. Critz. Beaufort. And I saw where a new hangar was being 
built for the F-35, and they are talking about the F/A-18s 
being retired.
    One of the things that concerns me is I see that the Navy 
has got a Strike Fighter shortfall projected at 52 aircraft in 
2019. So I am curious as to how the legacy aircraft, the delay 
in development of the Joint Strike Fighter, is going to impact 
not only current, but over these next 10 years. So anyone and 
everyone who wants to answer.
    General Robling. Okay, sir. I will take the first shot at 
that since you mentioned Beaufort first. That particular hangar 
will be done for fiscal year 2014. Our plan eventually is to 
move the training squadron there into Beaufort. Right now the 
way the program is slipped, we are looking at somewhere around 
2-year slip for IOC [Initial Operational Capability], maybe a 
little bit more.
    You know, this is an aircraft under development, and so it 
has--it has problems like all aircraft that are under 
development. But I think the program--the joint program office 
has a good plan for getting it back on track. And I think we 
have already had a good plan for SLEPing and sustaining the 
legacy aircraft. Of course, we can't do that forever.
    In the F/A-18 we decided that for the Strike Fighter 
shortfall, we had somewhere under 100, that would be 
manageable. Right now we are at 52; 13 of those are Marine 
Corps aircraft. So we will take the bulk of that risk. But we 
have a plan to SLEP again 150 of those ``Hornets.'' That will 
take us out to the point where we can transition to JSF [Joint 
Strike Fighter].
    Admiral Skinner. Yes, sir. And I will add we have a pretty 
comprehensive plan for keeping our legacy ``Hornets'' flying. 
We have the Service Life Management Plan where we actually use 
force gauges on the airplane to take actual data, and we fly 
them, you know, so that we minimize the fleet expended on those 
airframes, and we can manage the fleet expenditure down at the 
squadron level.
    We have done a service life analysis, a program on the 
legacy ``Hornet,'' so that we know where the--we have to look 
for the spots we have to do modifications and repairs. And then 
we are in the second phase. We are in the midst of the second 
phase of our SLEP for the legacy ``Hornet.''
    So we have a pretty comprehensive plan that we are most of 
the way through. We have the third phase of our SLEP to do. And 
we have identified the first 150 of those jets that we can tee 
up. And we start to SLEP those planes this year. So we have a 
program in place to extend the legacy ``Hornets'' to mitigate 
some of the ramifications of the JSF sliding for a couple of 
years.
    General Carlisle. And, sir, just to reiterate some of the 
other comments. You will hear an announcement fairly quickly 
from the United States Air Force that we are going to SLEP an 
avionics modernized probably in the vicinity of 300 to 350 F-
16s, legacy F-16s, to get them both avionic capabilitywise as 
well as structuralwise with this SLEP to cover any shortfalls 
we will have, and we think that is the right number.
    We have enough of the late model F-16s Block 40s and 50s to 
go as high as 600. We don't believe we will need to go there 
with respect to SLEP. We are doing that full-scale fatigue 
testing on the F-16s and the F-15s to determine the structural 
life of those airplanes. And again, the avionics is a part of 
the RDT&E in the fiscal year 2012 budget.
    We are all in the same position with our IOCs that will all 
probably slip about two years to the right, and the Air Force 
in the first look thinks ours is going to be about the same. 
But, sir, I will tell you, that airplane, it is going to be a 
great airplane. And we have got work to do, but it is going to 
be a good airplane, and we have to have it.
    Mr. Critz. Thank you, Mr. Chairman.
    Mr. Bartlett. Mr. Platts.
    Mr. Platts. Mr. Chairman, I have no questions. I just 
express my thanks to each of our witnesses for their service, 
the job you and your staffs are doing. And I yield back to the 
chairman.
    Mr. Bartlett. Thank you.
    Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Thank you all for your service. And I especially want to 
commend General Lindell and General Carlisle. I think the Air 
Force Academy has got to be very proud of both of you. So thank 
you for your service.
    I would like to start off with questions about remotely 
piloted aircraft. Of course, I represent Whiteman Air Force 
Base and feel very honored about that. We have the 20th 
Reconnaissance Squadron there. And I think that the remotely 
piloted aircraft is really very critical to what we are doing 
to defend our country right now. And, of course, its use is 
increasing as we monitor what is going on, and protect our men 
and women in uniform, and target enemies.
    And I know that in fiscal year 2010, there was a capacity 
of 50 sustained Combat Air Patrols, and then that has gone up 
now to 60 that we are doing. And I was on a radio interview 
last week and was asked a question, and I wonder if you could 
comment on it, because I was not aware of it. But the caller 
said that they had read that Congress had passed additional 
funding for aircraft, but yet we don't have the pilots to fly 
them. Can you shed some light on that? Is that the case?
    General Carlisle. Yes, ma'am, it is. If you see the growth 
of the combat air patrols that the MQ-1s and the MQ-9s are 
flying, that ramp, we have exceeded what we were planning on 
doing every year. We are in our sixth surge to provide that 
capability, the combatant commanders. We had three in Libya 
recently. Those were surge. There are other parts of the world 
where we are standing them up at a rapid pace.
    In fact, our issue today is our ability to train the sensor 
operators and the pilots. We have been surging for so long, and 
we are taking those instructor pilots that are supposed to be 
training the next group of folks, and we are putting them into 
combat missions because we are simply trying to provide the 
combatant commanders what they are asking for with respect to 
ISR [Intelligence, Surveillance, and Reconnaissance].
    So that is, in fact, true. We are at the top limit. As a 
matter of fact, we have grown to 60 CAPs [Combat Air Patrol], 
and we are probably going to come down a few CAPs in the not-
too-distant future to allow us to reconstitute some of our 
training capacity to start training the next round of folks who 
are going to do this mission. So that, in fact, is true.
    Mrs. Hartzler. Isn't it true that this is the fastest-
growing area of pilots right now is training for the remotely 
piloted aircraft versus the other?
    General Carlisle. It is the largest single group of pilots 
in the United States Air Force are the RPA [Remotely Piloted 
Aircraft] pilots. That is a true statement, yes, ma'am.
    Mrs. Hartzler. When do you anticipate that we will be able 
to meet capacity and to meet our needs?
    General Carlisle. We have a reconstitution plan that will 
take us about a year to get the training capacity, and the 
advanced tactic techniques and procedures, and the weapons 
school that we had to stand down to do the CAPs for the 
combatant commanders. We anticipate about a year to 
reconstitute the force. And about next year at this time, we 
will be on a glide path to get back to the capacity that we are 
looking to get to, which will eventually be 65 CAPs.
    Mrs. Hartzler. It is certainly an interesting phenomenon 
that we are seeing here in that.
    As it relates to airspace, I understand that during 
Hurricane Katrina and amid Federal requirements, there was 
difficulty gaining FAA [Federal Aviation Administration] 
approval for remotely piloted vehicle operations in U.S. 
airspace. So what is the status of remotely piloted aircraft 
being able to operate independently in U.S. airspace?
    General Carlisle. That is still an issue, ma'am. We are 
working it very diligently with the FAA and the national 
airspace structure. There is an initiative by the United States 
Air Force and the Army to build a ground-based sense and avoid. 
Clearly without a pilot in the airplane, the ability to see and 
avoid traffic is the biggest issue that the FAA has with RPAs. 
We are very close to getting to the point that we won't have to 
have chase or observers, but, in fact, we will have ground-
based sense and avoid, and what that is is using existing air 
traffic control radars to monitor and do kind of the sense and 
avoid for the RPAs. We are still working our way through. We 
are not there yet.
    Mrs. Hartzler. You would think that would be fairly easy to 
solve with all of the radar and the technology that we have 
today.
    General Carlisle. It is, ma'am, but it is crowded airspace. 
There is a lot out there. We have a very good relationship with 
the FAA. We are working very hard to move our way forward. I 
understand their concerns, and we have to get to a point where 
we all feel good with whatever risk is out there.
    Mrs. Hartzler. Can you tell me if we are using remotely 
piloted aircraft to monitor our southern border with Mexico or 
not?
    General Carlisle. Ma'am, remotely piloted aircraft are 
being used by a lot more folks than just the United States 
military. They are being used by the police departments, they 
are being used by Border Patrol, they are being used in many 
places, yes, ma'am.
    Mrs. Hartzler. Great. Thank you very much.
    Mr. Bartlett. Mr. Runyan.
    Mr. Runyan. Thank you, Mr. Chairman.
    And, gentlemen, thank you again for your service.
    General Lindell, and going down the Services, the delay in 
the Joint Strike Fighter, and specifically in the SLEP program, 
each Service, how much is that really costing us?
    General Lindell. Congressman, your question concerns the F-
16 SLEP program?
    Mr. Runyan. Yes.
    General Lindell. In the 2012 budget, we have $108 million 
in the 2012 budget; however, the total program that we are 
estimating, as General Carlisle has commented on, is 300 
aircraft. The total SLEP with structural modifications of 300 
aircraft plus an avionics modification would be roughly $9.4 
million per aircraft.
    Mr. Runyan. And hopefully we don't have any further delays, 
but how far down the road does that--you know, does that get us 
before we have to consider doing it again?
    General Lindell. Sir, this would add significant service 
life, and we are looking at the Block 50 and the Block 40 
aircraft to extend the service life to at least 10,000 flight 
hours on those aircraft. So certified to 8,000 today going to 
10,000, that would add roughly 8 years. So we are looking for 
capability through the next decade, which would be through 
2030. So we expect some viability out of the F-16 fleet if we 
are going to spend that much money, obviously, to SLEP the 
aircraft.
    Mr. Runyan. Thank you very much.
    That is all I have, Chairman. I yield back.
    Mr. Bartlett. Thank you very much.
    Mr. Reyes, do you have another round of questions?
    Mr. Reyes. I will take one more. This question concerns the 
U-2, and it is for General Carlisle.
    The Air Force had intended to begin retiring the U-2 
aircraft in 2006. Congress passed legislation delaying that 
action until the Secretary of Defense can certify to Congress 
that the capabilities provided by the U-2 aircraft no longer 
contribute to mitigating any caps--any gaps in intelligence 
surveillance and reconnaissance capabilities.
    Is there a replacement capability that can replicate the U-
2, or is this a case much like the SR-71, where it provided an 
unmatched capability, but we just couldn't continue to afford 
its unique operational capability, and so we retired it? What 
are our plans in the Air Force for the U-2?
    General Carlisle. Sir, we are not retiring it in the near 
term in accordance, obviously, with law as well as the right 
thing to do with respect to maintaining the capability. The 
``Global Hawk,'' the RQ-4, will be the replacement. It is not 
there yet. The sensor suite is not there, and it cannot match 
what the U-2 does. We do have a high-altitude transition plan, 
a high-altitude reconnaissance transition plan, that talks 
about when the ``Global Hawk'' in future years will be able to 
serve that same target set with respect to intelligence 
surveillance, reconnaissance to replace the U-2. We are not 
there yet, and that airplane is going to be maintained for a 
period of time. It is a very expensive airplane to fly, but we 
are balancing that with the need for that capability.
    Mr. Reyes. Do we have at this point any idea, any ideas how 
much longer before we have that transitional capability?
    General Carlisle. Sir, I think with the Block 40 U-2s and 
the sensor suite that are going to be incorporated in that 
airplane, we will start to get close to that. We believe that 
the U-2 will probably be around at least through 2014 or 2015 
right now. And in that timeframe we believe the ``Global Hawk'' 
may be at the point that it can fill that mission set, yes, 
sir.
    Mr. Reyes. Very good. Thank you.
    That is all, Mr. Chairman.
    Mr. Bartlett. Thank you very much.
    Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    General, following up on what I was talking about before, 
sort of in the same vein, could you give us your best 
professional military opinion on whether or not the U.S.'s 
current industrial base and fighter production capacity have 
the ability to meet the Air Force's and the Air Guard's 
operational requirements for protecting the homeland and 
continued overseas operations if the F-35 continues to slip to 
the right and we have to do something?
    General Carlisle. Sir, the answer is yes, I do believe, in 
my personal opinion. I think that there is still a production 
line for F/A-18s. There is still a production line for F-16s. 
And there is still an F-15E production line that are still 
producing airplanes. In the near term, those are still part of 
the industrial base that are making great airplanes and still 
provide a great capability.
    I think the F-35, as I mentioned earlier, we have to have 
that airplane, and we have to have that program. I think that 
as we continue to work our way through the F-35, and we 
continue to see success, I think I will gain more and more 
confidence in our ability to fill that need in that industrial 
base. But in the current situation, we have production lines 
available to produce airplanes, and, again, I believe the F-35 
is going to be a great airplane, and I think it is making 
progress.
    Mr. LoBiondo. Well, we all hope for that, and there is no 
doubt about it, it is an unbelievable--it is an unbelievable 
plane. However, if you are sitting on this side, and we have 
listened to all of the projections over a number of years now, 
and going back to General Jumper's presentations, you have got 
to have a little bit of a step back and a pause about where we 
go if the projections and the predictions are not correct. And 
I think what you are saying is that we don't want to be in a 
risk situation with only one production line if we can't see 
some clear progress here; is that correct?
    General Carlisle. Sir, I see progress in the F-35 program, 
and I believe that airplane will deliver. I truly believe that.
    Again, the industrial base, I fully concur with it is 
something we need to be concerned about. We also need to work 
within the total obligation authority that we have within the 
Department of Defense. I believe that the F-35 program is going 
to deliver.
    Mr. LoBiondo. Okay. Obviously we will watch that very 
carefully, given Mr. Critz's questions on the HH-60s and the 
UH-1, and ask could the Air Force provide us with specific data 
in the coming weeks on the age, condition and performance of 
those airframes through November of this year. Would that be 
possible?
    [The information referred to can be found in the Appendix 
on page 65.]
    General Carlisle. Yes, sir.
    Mr. LoBiondo. Thank you, Mr. Chairman. I yield back.
    Mr. Bartlett. Mr. Critz, no other questions?
    Mr. Platts?
    Mrs. Hartzler?
    Mr. Runyan? He is gone.
    Thank you all very much for attending. I have been watching 
my question list and marking off those that have been asked by 
other members, and I think I have an even dozen short, quick 
questions. Some of them can have a yes or no answer.
    Admiral Floyd, General Robling and General Carlisle, for 
each of the Services, which of your combat aircraft in the 
operational forces or in the development phase have 
electromagnetic pulse protection?
    Admiral Floyd. I can start with that, sir. The EMP 
[electromagnetic pulse] hardening is--that would be a 
classified response.
    Mr. Bartlett. Certainly the level to which you have 
hardened may be classified, but whether are your hardened--had 
hardened or not, that really is not classified, is it?
    Admiral Floyd. I believe that it is, sir, but I would take 
that back. I can get you that answer.
    Mr. Bartlett. Yes. I don't think that whether you have 
hardened them or not is classified. The level to which you have 
hardened may be classified. If you will take that for the 
record, I would be very pleased with that.
    [The information referred to can be found in the Appendix 
on page 65.]
    Mr. Bartlett. Okay. We have the same question for the three 
of you relative to the F-35 program. Is it hardened? And we may 
have to have a classified session to discuss this, but I am 
concerned that it be hardened--not only hardened, but hardened 
to an appropriate level--so that they will still be available 
to us after a robust EMP laydown by a peer or near-peer.
    For many of the adversaries that we may face in the future, 
we really don't need these planes. We can do with lesser 
capable planes. When we really will need them is when we are 
faced with a peer or near-peer. And it is in all of their open 
literature, it is in all of their war games, one of the early 
things is a robust EMP laydown which will deny us the use of 
all of our equipment which is not adequately hardened. So we 
are very concerned not only that they be hardened, but they be 
hardened to an appropriate level.
    I had another question relevant to the EMP, and I guess we 
will have to take that for the record, too. We understand that 
in the August 2011 interim report from the Defense Science 
Board on the Survivability of Systems and Assets to 
Electromagnetic Pulse and Other Nuclear Weapons Effects, the 
Air Force nonconcurred with the new aircraft EMP standard, MIL-
STD-3023; that this has potential impact on survivability 
requirements for a new aircraft such as the F-35, the tanker, 
the next-generation bomber, and the White House platforms.
    Could you tell us--and I guess you will have to do this for 
the record. Please tell us why the Air Force nonconcurred, with 
what did the Air Force nonconcur, and why the Air Force 
nonconcurred, if you could do that.
    General Carlisle. Yes, Mr. Chairman, we will take that for 
the record and get back to you.
    [The information referred to can be found in the Appendix 
on page 65.]
    Mr. Bartlett. Thank you.
    Admiral Floyd and General Robling, given the recent effect 
of the Budget Control Act of 2011, do you anticipate that you 
will decrease the total number of JSF bought from the current 
program of record, 680 aircraft total? If so, how will this 
affect the Navy and Marine Corps being able to meet strike 
fighter requirements in the future?
    Admiral Floyd. Mr. Chairman, the answer to that is no, we 
still intend to procure 680 aircraft.
    Mr. Bartlett. Thank you.
    General Robling, as you know, the JSF program has 
experienced a significant delay in its SDB [Small Diameter 
Bomb] program and a delay in the development of the F-35B. 
Previously initial operational capability, the IOC, was planned 
for 2012. What are the Marine Corps' projections for initial 
operational capability of the F-35B?
    General Robling. Mr. Chairman, I am anticipating--I think I 
talked about that the last time we were together. It is event 
driven. I believe that will be 2 years later, late 2014, and it 
may go into 2015.
    Mr. Bartlett. Admiral Skinner, when does the Navy plan for 
the IOC and the F-35C?
    Admiral Skinner. Mr. Chairman, the Navy defines IOC as 10 
compliant Block 3 aircraft ready to deploy that have completed 
initial operation tests and evaluation. We are awaiting the 
results of the technical baseline review that will inform the 
integrated master schedule. That should be with us towards the 
end of this calendar year, and at that point in time, when we 
get a real clear idea about the test and evaluation schedule, 
we will be able to define when that IOC will be.
    Mr. Bartlett. Thank you very much.
    General Carlisle, when does the Air Force plan to be IOC in 
the F-35A?
    General Carlisle. Mr. Chairman, just as the other Services, 
it is event driven. It will be dependent upon the IOT [Initial 
Operational Test] for Block 3 airplane to be completed and air 
crews trained, maintainers trained, and a sustainable 
deployment capability with those airplanes. We anticipate that 
that will be probably approximately a 2-year slip. We will have 
better fidelity when we see the master schedule. It currently 
is 2016. We anticipate that will slip until 20--it is currently 
2016. We think that will slip until 2018.
    Mr. Bartlett. And again, General Carlisle, recent news 
reports suggest a difference between Dr. Gilmore, the Director 
of Operational Testing, and the F-35 Joint Program Office about 
the readiness of the Eglin Air Force Base F-35s to enter into 
an operational utility evaluation that would generate a 
capability to train F-35 pilots. We understand that the Under 
Secretary of Defense has asked the Air Force to review Dr. 
Gilmore's concerns. Does the Air Force view Dr. Gilmore's 
concerns and does the Air Force plan to proceed with the OUE 
[Operational Utility Evaluation] soon?
    General Carlisle. Mr. Chairman, thanks for that question. 
Obviously, we take the concerns of Dr. Gilmore very seriously. 
Both the United States Air Force and Aeronautical Systems 
Command, Lieutenant General Tom Owens, as well as Admiral 
Venlet, have talked to Dr. Gilmore. We are in the process of 
going through all his concerns. I think we very recently in the 
last couple of days have brought him more information.
    We have a very diligent and deliberate process to do a 
military flight release and an airworthiness certificate. We 
are going through those steps. We have not completed them yet. 
And we are demonstrating those to Dr. Gilmore. We believe that 
we will be able to do that and satisfy all of his concerns.
    For correctness also, there are six airplanes at Eglin 
today, six F-35s down at Eglin today. Last week two more were 
delivered. And we believe that we will be able to do a military 
flight release at some point in the not-too-distant future. 
But, again, it is event driven, and we are going through that 
process very deliberately, and we are addressing all of Dr. 
Gilmore's concerns.
    Mr. Bartlett. Thank you.
    General Lindell, we understand that negotiations for F-35 
Block 5 contracts are still ongoing, and a major point of 
contention between the Government and the contractor is the 
issue of who will pay for changes to the aircraft due to 
concurrency. Is this correct?
    General Lindell. Mr. Chairman, you are correct. And the 
issue is concurrency in the LRIP [Low Rate Initial Production] 
5 contract and the amount of Government liability versus 
contractor costs for concurrency.
    Mr. Bartlett. Can you tell us, sir, when will Block 5 
contract negotiations probably be completed?
    General Lindell. Yes, sir. We plan to definitize the 
contract for LRIP 5 this spring, next spring in 2012.
    Mr. Bartlett. Another question for General Lindell. Please 
describe the updated acquisition strategy for the Light Attack/
Armed Reconnaissance aircraft, the LAAR aircraft. Has the 
acquisition strategy been fully approved and finalized for this 
program?
    General Lindell. Mr. Chairman, for LAAR, Light Aircraft 
Armed Reconnaissance, the acquisition strategy has not been 
fully approved at this time. It is on hold. Obviously, the LAAR 
program is a new start in the 2012 budget, and we are awaiting 
the budget before we progress and coordinate the acquisition 
strategy for LAAR.
    Mr. Bartlett. And a question for General Carlisle relative 
to LAAR. In light of the recent Senate Armed Services Committee 
and Senate Appropriations Subcommittee on Defense marks that 
would not provide funds for LAAR in fiscal year 2012, is the 
Air Force reconsidering its requirement for LAAR?
    General Carlisle. Mr. Chairman, I think, as was stated here 
many times, given the budget constraints that we are under, we 
are looking at everything, and LAAR is certainly no exception. 
We are looking at every program in the future, and as our top 
line goes down, we are looking at all those. And LAAR is one of 
the ones that is being looked at, as well as every other 
program in the Air Force.
    Mr. Bartlett. Mr. Reyes, Mr. Critz, do either of you have 
additional questions?
    Thank you very much.
    When we have reviewed the hearing today, the questions and 
the answers, there may be a need to ask additional questions 
for the record. We trust that you will be ready and able to 
answer those.
    I want to thank you all very much for your testimony today.
    General, thank you very much for your long years of 
service. All the best. All the best in retirement.
    General Lindell. Thank you, Mr. Chairman. It has been a 
great honor and a great pleasure to serve our Nation and our 
United States Air Force alongside my peers. If I had to do it 
all over again, I certainly would. Thank you very much, sir.
    Mr. Bartlett. Thank you.
    Our hearing stands in adjournment.
    [Whereupon, at 3:35 p.m., the subcommittee was adjourned.]



=======================================================================


                            A P P E N D I X

                            November 2, 2011

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            November 2, 2011

=======================================================================


                  Statement of Hon. Roscoe G. Bartlett

         Chairman, Subcommittee on Tactical Air and Land Forces

                               Hearing on

            Fiscal Year 2012 Combat Aviation Programs Update

                            November 2, 2011

    The Tactical Air and Land Forces Subcommittee meets today 
to receive testimony on Navy, Marine Corps and Air Force combat 
aircraft programs.
    I would like to thank our witnesses for being here today. 
They are:

        <bullet> LVice Admiral W. Mark Skinner, USN, Principal 
        Military Deputy to the Assistant Secretary of the Navy 
        (Research, Development, and Acquisition);
       <bullet> LLieutenant General Terry G. Robling, USMC, 
        Deputy Commandant of the Marine Corps for Aviation;

        <bullet> LRear Admiral Kenneth E. Floyd, USN, Director 
        of the Air Warfare Division for the U.S. Navy;

        <bullet> LLieutenant General Herbert J. Carlisle, USAF, 
        Deputy Chief of Staff for Operations, Plans and 
        Requirements, U.S. Air Force; and

        <bullet> LMajor General Jay H. Lindell, USAF, Director, 
        Global Power Programs, Office of the Assistant 
        Secretary of the Air Force for Acquisition.

    This is the third in a series of hearings we are holding 
for the purpose of updating our members on the budget request 
for FY 12. The potential impact of the Budget Control Act of 
2011 on our military capability is a major concern to this 
subcommittee. Today we will address combat aviation programs, 
to hear from our witnesses about potential impacts of budget 
decisions on our deterrence and combat capability. It would be 
better had the Department of Defense provided the Services an 
updated national military strategy and a projection of 
resources likely to be available, so the Services could better 
plan their programs, but I am sure they are doing the best they 
can.
    As I have stated before, major reductions in the Federal 
budget need to be a major element of correcting the Federal 
deficit.
    The Department of Defense must share in a fair and balanced 
way in those reductions, and that process is already taking 
place under the Budget Control Act of 2011, with nearly $500 
billion in cuts planned for DOD over the next 10 years.
    Under the sequestration provision of the Budget Control 
Act, further cuts, up to a total of $1 trillion over 10 years, 
could be possible under what Secretary Panetta has called the 
``doomsday mechanism.''
    Indeed, the Air Force statement for this hearing warns that 
``reductions imposed by the implementation of sequestration 
rules would have a significant adverse impact on the ability of 
the United States Air Force to perform the missions to which it 
is assigned.''
    We have much to cover today, but a major issue is strike 
fighter aviation in the Navy, Marine Corps and Air Force.
    Much of the future of America's strike fighter aviation 
hinges on the development and production of the F-35.
    Through September, overall, the F-35 program, based on the 
current revised schedule, is ahead of the number of flight test 
hours and achievements of test points for the F-35A and F-35C, 
planned for calendar year 2011. The F-35B is slightly behind 
those benchmarks thus far. However, the F-35B recently 
completed its initial development sea trials aboard the USS 
Wasp, which reportedly went very well.
    But the F-35 program continues to experience additional 
costs from the effects of concurrent development and production 
activities, and we continue to feel both the financial effects 
and the operational effects of this concurrent program. 
Projecting the costs related to concurrency have proved 
challenging.
    Although funds were appropriated in April for fiscal year 
2011 F-35 aircraft procurement, the contract for those aircraft 
has not been completed between the Government and the 
contractor. We understand that one of the major reasons for 
there not yet being a signed contract for fiscal year 2011, is 
the inability for the Government and the contractor to agree on 
what the concurrency costs are likely to be, whether these 
costs should be shared, and if shared, how should they be 
shared.
    Funding for 35 F-35 aircraft was appropriated for fiscal 
year 2011, but we understand that the Department is likely to 
procure only 30 aircraft because some funds will be required to 
pay for cost overruns in the first three production lots, and 
to potentially pay for concurrency modifications expected for 
the fiscal year 2011 aircraft.
    Although four of the first operational F-35A aircraft were 
recently delivered to Eglin Air Force Base, we understand that 
there is some disagreement within the Department of Defense on 
whether the operational F-35A aircraft at Eglin Air Force Base 
are ready to begin an operational utility evaluation that would 
assess the readiness of the F-35A to begin a training program 
beyond an initial cadre of operational pilots. We understand 
that this evaluation had been scheduled to begin this month.
    Some say there are safety concerns, others say those 
concerns have been addressed. We hope our Air Force witnesses 
today can help us understand when the Air Force plans to begin 
the F-35 operational utility evaluation.
    Additionally, most members will recall that at our National 
Guard and Reserve Component hearing on October 12th, General 
Wyatt, the Director of the Air National Guard, testified that 
he had not yet received a plan for recapitalizing the Air 
National Guard's fighter fleet which is of particular concern 
to those units conducting Aerospace Control Alert missions.
    As a result, Mr. LoBiondo and I formally requested that the 
Secretary of the Air Force provide both the committee and 
General Wyatt with a comprehensive plan before the end of this 
year for modernizing the Air National Guard's Aerospace Control 
Alert mission fleet and applicable fighter wings. We hope our 
witnesses can provide us an update on the progress of that 
effort today.

                   Statement of Hon. Silvestre Reyes

      Ranking Member, Subcommittee on Tactical Air and Land Forces

                               Hearing on

            Fiscal Year 2012 Combat Aviation Programs Update

                            November 2, 2011

    Today's hearing on combat aviation programs occurs just as 
the Pentagon is weighing some major strategic decisions that 
could greatly impact aircraft programs. Among those decisions 
are how much we are willing to invest in maintaining our 
current dominance in the air.
    No other nation in the world can match us today in terms of 
our capability to project airpower. Most don't even try. For 
example, in Afghanistan today, U.S. commanders can get close 
air support aircraft over any target in less than 15 minutes. 
That remarkable capability doesn't just happen. It requires an 
array of tanker aircraft, combat search & rescue, 
communications, and other systems all working in concert.
    The United States also fields hundreds of unmanned systems 
that didn't exist back in 2001. The intelligence provided by 
those platforms has become an essential part of almost all 
ground operations in Afghanistan. However, this dominance is 
not permanent. China, Russia, and other nations are developing 
systems to challenge our current dominance, and in a future 
conflict we may not be able to operate like we can today in 
Afghanistan. So, the Air Force, Navy, and Marine Corps face the 
challenge of maintaining today's forces in combat while also 
laying the groundwork for the future.
    In the area of air power, finding this balance can be 
extremely difficult because it takes many years to design, 
field, and learn to operate new aircraft.
    This hearing will also cover DOD's largest single 
acquisition program: The F-35 Joint Strike Fighter. Based on 
testimony, budget documents, and reports received by the 
committee, it is clear that the program is facing significant 
development challenges. However, despite the program's 
challenges, I support it. I support the program because in the 
future there is a very good chance that our military will have 
to overcome sophisticated air defense systems, and the only way 
to do that is with a combination of fifth-generation stealth 
aircraft and other advanced systems.
    If we walk away from the F-35 program, we simply won't be 
able to project power in many areas of the world in the future. 
To me, that possibility is not acceptable, so I think it is 
critical that we find a way forward with the F-35 that gets us 
what we need: An affordable fifth-generation aircraft we can 
procure in large numbers. That might require changing the 
program to some degree, but the program has to move forward 
because the threat to continued American dominance in the air 
is real, and growing.
    I look forward to our witnesses' testimony today.

    [GRAPHIC] [TIFF OMITTED] 71526.016
    
    [GRAPHIC] [TIFF OMITTED] 71526.017
    
    [GRAPHIC] [TIFF OMITTED] 71526.018
    
    [GRAPHIC] [TIFF OMITTED] 71526.019
    
    [GRAPHIC] [TIFF OMITTED] 71526.020
    
    [GRAPHIC] [TIFF OMITTED] 71526.021
    
    [GRAPHIC] [TIFF OMITTED] 71526.022
    
    [GRAPHIC] [TIFF OMITTED] 71526.023
    
    [GRAPHIC] [TIFF OMITTED] 71526.024
    
    [GRAPHIC] [TIFF OMITTED] 71526.025
    
    [GRAPHIC] [TIFF OMITTED] 71526.026
    
    [GRAPHIC] [TIFF OMITTED] 71526.027
    
    [GRAPHIC] [TIFF OMITTED] 71526.028
    
    [GRAPHIC] [TIFF OMITTED] 71526.029
    
    [GRAPHIC] [TIFF OMITTED] 71526.030
    
    [GRAPHIC] [TIFF OMITTED] 71526.031
    
    [GRAPHIC] [TIFF OMITTED] 71526.032
    
    [GRAPHIC] [TIFF OMITTED] 71526.033
    
    [GRAPHIC] [TIFF OMITTED] 71526.001
    
    [GRAPHIC] [TIFF OMITTED] 71526.002
    
    [GRAPHIC] [TIFF OMITTED] 71526.003
    
    [GRAPHIC] [TIFF OMITTED] 71526.004
    
    [GRAPHIC] [TIFF OMITTED] 71526.005
    
    [GRAPHIC] [TIFF OMITTED] 71526.006
    
    [GRAPHIC] [TIFF OMITTED] 71526.007
    
    [GRAPHIC] [TIFF OMITTED] 71526.008
    
    [GRAPHIC] [TIFF OMITTED] 71526.009
    
    [GRAPHIC] [TIFF OMITTED] 71526.010
    
    [GRAPHIC] [TIFF OMITTED] 71526.011
    
    [GRAPHIC] [TIFF OMITTED] 71526.012
    
    [GRAPHIC] [TIFF OMITTED] 71526.013
    
    [GRAPHIC] [TIFF OMITTED] 71526.014
    
    [GRAPHIC] [TIFF OMITTED] 71526.015
    


====================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            November 2, 2011

=======================================================================

            RESPONSES TO QUESTIONS SUBMITTED BY MR. BARTLETT

    Admiral Floyd. While the actual Electromagnetic Pulse (EMP) threat 
is classified in accordance with MIL-STD 2169, aircraft EMP hardening 
level specifications are not classified. These design margins are 
identified in the unclassified aircraft design specifications. There 
are currently six Navy/Marine Corps aircraft in operation with 
incorporated EMP protection that has been validated at the platform 
level. These platforms are the E-6B, F/A-18E/F, EA-18G, MV-22B, VH-3D, 
and the VH-60N. Three aircraft currently in development have EMP 
protection requirements in their contracts, the F-35B, F-35C, and the 
P-8A. [See page 16.]

    General Carlisle. The Air Force was concerned with the directive 
language in the initial draft of MIL-STD-3023. We felt it would result 
in increased weapon system development costs and impact aircraft 
availability rates. The Air Force proposed MIL-STD-3023 modifications 
and language changes to allow greater flexibility in the aircraft 
design process, clarify testing requirements and specify aircraft 
applicability. OSD, AT&L, USSTRATCOM, and DTRA have now reached 
consensus on the updated language, and the new draft MILSTD will have 
Air Force support at the 21 November 2011 Defense Standardization 
Council. [See page 17.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. LOBIONDO
    General Carlisle. The current HH-60G fleet has 99 aircraft, five of 
which are not flyable due to excessive damage. Since 2007, availability 
rates have declined to 59 percent. Air Force HH-60G helicopter average 
age is 21.3 years old, the oldest was delivered in December 1982 and 
the newest delivered in February 1999. 14 percent of the fleet is 
operating beyond the economic service life of 7,000 hours per airframe. 
The remainder of the fleet is rapidly approaching this critical 
milestone.
    We are currently flying these aircraft at three times their planned 
flying hour program. When you combine that with the continuous harsh 
combat conditions we operate in we are rapidly consuming the useful 
life of these aircraft. Wear and tear has accelerated, especially over 
the past five years. 74 percent of the aircraft have experienced major 
structural cracking which has resulted in the need for 14 major 
modifications just to sustain the fleet. Since 2007, the structural 
issues combined with combat battle damage has decreased the mission 
capable rate of available aircraft to 73 percent. In this same time 
frame, maintenance man hours per flight hour has increased by 26 
percent to 13.8 hours.
    The current UH-1N fleet contains 59 aircraft with over 12,500 hours 
per aircraft. The average age of the UH-1N fleet is over 40 years with 
the oldest delivered in March 1970 and the newest delivered in May 
1971. The UH-1N's advanced age is appearing in the form of airframe 
cracks. For example, we are in the final stages of replacing all of the 
tail boom assemblies on our UH-1Ns because of cracks. As with other 
aging airframes, it is challenging keeping a forty-year-old aircraft 
combat mission ready while working through the issue of parts 
availability and obsolescence. Over the last year alone, the fleet was 
grounded four times due to structural failures. I see challenges 
showing up in our UH-1N availability rates. The UH-1N availability rate 
has been on a slow decline for the past two years. Currently, the UH-1N 
availability rates are lower than 76 percent. As for performance, the 
UH-1N fleet does not meet missile complex security requirements for 
endurance, speed, and payload. In addition to the UH-1N's validated 
capability gaps, there are not enough UH-1N aircraft to meet the 
security needs for our nuclear enterprise and the missions in the 
Military District of Washington. [See page 15.]



=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            November 2, 2011

=======================================================================

                  QUESTIONS SUBMITTED BY MR. BARTLETT

    Mr. Bartlett. For each of the Services, do any of your combat 
aircraft in the operational forces or in development have 
electromagnetic pulse protection?
    General Robling. Our AV-8B, EA-6B, and F/A-18A-D aircraft avionic 
components maintain the capability to meet current military standards 
in regards to electromagnetic pulse protection. All variants of the F-
35 are designed to protect against electromagnetic pulse and are 
scheduled for testing as part of the System Design and Development 
process.
    Mr. Bartlett. For each of the Services, is EMP hardening funded in 
the F-35 development program and incorporated on the F-35 production 
aircraft?
    General Robling. All Joint Strike Fighter variants aircraft are 
hardened and funded for EMP at a multi-tier level: the components 
themselves are hardened and then the jet and systems are hardened and 
tested. Box level qualification testing is nearing completion; hardness 
surveillance will be conducted via full scale EMP testing during 
verification efforts from 2013 to 2016.
    Mr. Bartlett. Based on the recent results of the initial ship 
trials on the USS Wasp, can you describe for us the ship integration 
challenges and expected costs you foresee for integrating the JSF onto 
Large Deck Amphibs?
    General Robling. The recent F-35B ship trials on the USS Wasp 
demonstrated Large Deck Amphibious compatibility and a major increase 
in operational capability. Over 4 years ago we started the STOVL 
shipboard integration engineering analysis and since then developed a 
set of anticipated ship alterations. One of the primary purposes of the 
ship trials in October was to verify these anticipated alterations and 
adjust designs and the necessity based on actual data. We anticipated 
approximately $43M per ship and based on the preliminary test results 
expect not to exceed this estimate nor realize any integration 
challenges that would limit the full combat potential the F-35B provide 
our Marine Expeditionary Units.
    Mr. Bartlett. Given the recent affects of the Budget Control Act of 
2011, do you anticipate that you will decrease the total number of JSF 
bought from the current program of record of 680 aircraft total? If so, 
how will this affect the Navy and Marine Corps being able to meet 
strike fighter requirements in the future?
    General Robling. The FY12 Presidential Budget request reflects our 
requirement to meet our strike fighter requirements. Our requirement 
for 680 JSF could be adjusted to reflect changes any changes in our 
national defense strategy, when and if that occurs it would be prudent 
to adjust the procurement of all our weapon system programs to 
adequately support the new strategy.
    Mr. Bartlett. The total Department of the Navy strike fighter 
shortfall is 65 aircraft in approximately 2018. Of that amount, what is 
the Marine Corps strike fighter shortfall and what are Marine Corps 
plans to mitigate its effects?
    General Robling. The strike fighter shortfall of 52 aircraft 
includes the Navy procurement of an additional 9 F/A-18E/F aircraft, 
and the peak shortfall would occur in 2018. Of the 52 aircraft 
shortfall the Marine Corps share would be approximately 40. Without the 
procurement of the additional 9 F/A-18E/F aircraft, the Department of 
the Navy strike fighter shortfall is projected at 65 aircraft with a 
peak in 2018. Of this total the Marine Corps share would be 47 
aircraft. The DoN has determined that a 65 aircraft shortfall in 2018 
is manageable with the mitigations in place. If the JSF delivery 
profile remains unchanged, and the service life of 150 F/A-18A-D is 
extended to 10,000 flight hours (along with success in other mitigation 
efforts), DoN will continue to assess the most recent shortfall 
projection as manageable. DoN 13 funding fully supports this strategy. 
However, any further delay in the JSF delivery profile will have a 
negative effect on existing strategies and the projected strike fighter 
shortfall in both magnitude and duration. Expanded inventory management 
decisions (i.e., SLEP additional legacy aircraft) are possible but 
depend greatly upon expected JSF availability, legacy aircraft 
utilization and attrition rates.

    Mr. Bartlett. For each of the Services, do any of your combat 
aircraft in the operational forces or in development have 
electromagnetic pulse protection?
    Admiral Floyd. Yes, there are currently six Navy/Marine Corps 
aircraft in operation with incorporated electromagnetic pulse (EMP) 
protection that has been validated at the platform level. These 
platforms are the E-6B, F/A-18E/F, EA-18G, MV-22B, VH-3D, and the VH-
60N. Three aircraft currently in development have EMP protection 
requirements in their contracts. These are the F-35B, F-35C, and the P-
8A.
    Mr. Bartlett. For each of the Services, is EMP hardening funded in 
the F-35 development program and incorporated on the F-35 production 
aircraft?
    Admiral Floyd. Yes, EMP hardening protection is funded in the F-35 
development program and has been incorporated into all variants of the 
F-35.
    Mr. Bartlett. Given the recent affects of the Budget Control Act of 
2011, do you anticipate that you will decrease the total number of JSF 
bought from the current program of record of 680 aircraft total? If so, 
how will this affect the Navy and Marine Corps being able to meet 
strike fighter requirements in the future?
    Admiral Floyd. No, the DoN intends to procure the program of record 
of 680 JSF aircraft.
    Mr. Bartlett. The intelligence, surveillance, and reconnaissance 
systems requirements established by the wars in Iraq and Afghanistan 
provided billions of dollars for each of the military services' ISR 
capabilities. Each of the Services have advanced significantly in the 
use of remotely piloted aircraft, ISR aircraft like the MC-12 and 
others, tethered balloons, and related payload sensor systems and 
strike capabilities. Additionally, hundreds of millions of dollars has 
been spent and is planned to be spent on individual Service technical 
demonstrations resurrecting current-day versions of blimps and related 
sensor arrays: Programs like the Army's Long-Endurance Multi-
Intelligence Vehicle, the Navy's MZ-3, and the Air Force's Blue Devil 
2. The military services have been given significant freedom to pursue 
their own developments of aircraft, remotely piloted vehicles, and 
sensors. The industrial base has benefited from that. However, vehicles 
and sensors have been allowed to proliferate, some would say 
excessively. Given a newly constrained budget environment, is there a 
DOD structure that will result in a rationalized array of systems and 
capabilities or will each Service likely be cut a given amount, with 
the result in some cases being continued unstructured proliferation of 
capabilities?
    Admiral Floyd. The DOD has made significant investment in ISR 
platforms and SIGINT payloads. Each Service has somewhat different 
mission requirements that, in some cases, drive the procurement of 
specific and tailored capabilities. Multi-Service Synergies Working 
Groups have been established with the goal to achieve commonality, 
interoperability, and efficiency wherever possible. The Services 
collaborate on common control systems, joint training/basing, data 
standards, and compatible spares in order to reduce total ownership 
costs. The Navy continues to strive for reduce capability redundancy 
and standardize ISR platform and sensor procurement to meet maritime 
warfighter needs in both current Programs of Record and planning for 
future capabilities. Navy frequently uses systems that were developed 
by other Services and have wide customer profiles. Examples are the EO/
IR sensors, EW sensors, and radars currently being procured for the 
BAMS and Fire Scout UAVs.
    In addition to the traditional procurement process, engagements in 
Iraq and Afghanistan have driven the Services to pursue several new ISR 
systems to fulfill COCOM urgent needs. Prior to approval of funding, 
these needs and solutions are validated by the Under Secretary of 
Defense for Acquisition, Technology, and Logistics Joint Rapid 
Acquisition Cell (JRAC) and the Joint Staff. These systems are usually 
initially funded by OCO, supplied by ISR Task Force or the Services. If 
they are successful and selected as enduring capabilities, these 
capabilities become programs of record which are then folded into the 
normal POM cycle process and funded within Service baselines. This 
Joint process promotes getting the warfighter the right capability, at 
the right time, at the right price.

    Mr. Bartlett. I noticed in your testimony that you did not mention 
the relative condition, age and capability of the Air Force's fleet of 
HH-60 Pave Hawk helicopters. Can you please provide the committee with 
that information as well as any plans to recapitalize the CSAR fleet?
    General Carlisle. The current HH-60G fleet contains 99 total 
aircraft inventory, of which 94 are flyable. Since 2007, availability 
rates have declined by 5% to 59%. Air Force HH-60G helicopters average 
age is 21.3 years old; the oldest was delivered in December 1982 with 
the newest delivery received in February 1999. Two aircraft have 
exceeded 10,000 flight hours.
    In the past five years, utilization rates were three times higher 
than programmed. This, combined with the demands of continually flying 
in combat conditions, has accelerated wear on the airframes. 73 
aircraft experienced major structural beam cracking which led to 14 
major fleet modifications. Structural issues and combat battle damage 
since 2007 led to a 73% mission capable rate for available airframes. 
In this same time frame, maintenance man hours/flight increased by 30% 
to 16.07 hours.
    The Combat Rescue Helicopter (CRH) program recapitalizes the HH-60G 
fleet to its current program of record of 112. The program is a full 
and open competition with an expected initial operating capability in 
fiscal year 2018.
    Mr. Bartlett. I understand the Subcommittee raised the concern this 
past spring the Air Force issue a full and open competition for the 
CVLSP requirement soon to be decided on. In your testimony today, you 
mention that it is indeed the Air Force's intent to replace its Hueys 
with an affordable commercial-off-the-shelf option to fulfill this 
mission. Is this still indeed the case? I ask because there have been 
reports that indicate the Air Force, since the spring, has again 
considered sole-sourcing the contract to a larger, more expensive 
combat type platform.
    General Carlisle. Yes, the Air Force's acquisition strategy for 
CVLSP is full and open competition for an off-the-shelf platform that 
can meet the Joint Requirements Oversight Council validated user 
requirements.
    Mr. Bartlett. Does the USAF concur with the new MIL STD 3023 for 
aircraft survivability to HEMP approved by Navy and the Army and 
specifically recommended by the Defense Science Board Permanent Task 
Force on the Survivability of DOD Systems and Assets to Electromagnetic 
Pulse (EMP) and Other Nuclear Weapons Effects (NWE)? If not, why not? 
If not MIL STD 3023 or the old MIL-STD 2169B, what is the MIL STD level 
of HEMP hardening by the USAF for JSF, KC-46A aerial refueling tanker, 
the next-generation bomber and the Presidential aircraft fleet? This is 
important since Dr. John Kuspa, Chief, Nuclear, Survivability, ATL-NCB-
NM, has publicly documented the relaxing of DOD survivability standards 
between 1991 and 1996 and emphasized that ``all references to nuclear 
survivability were deleted in the 1996 5000-series revisions'' and that 
``2000 revisions did not address how to acquire nuclear survivable 
systems.''
    General Carlisle. Initial coordination of draft MIL-STD-3023 in 
December 2010 met with Air Force concern over fixed design margins, 
verification testing, and applicability to new/legacy aircraft. The Air 
Force proposed MIL-STD-3023 modifications and language changes to allow 
greater flexibility in the aircraft design process, clarify testing 
requirements and specify aircraft applicability. OSD, AT&L, USSTRATCOM, 
and DTRA have now reached consensus on the updated language, and the 
new draft MILSTD will have Air Force support at the 21 November 2011 
Defense Standardization Council.
    F-35 ORD/Joint Contract Specification (JCS) requires the F-35 to be 
hardened against man-made external electromagnetic environments IAW 
MIL-STD-464.
    According to the Capability Development Document (CDD), ``the KC-X 
fleet shall have EMP protection for flight-critical systems [and] be 
capable of air refueling in an EMP environment''. The MIL-STD-3023 was 
not available for inclusion in KC-X Request for Proposal (RFP); KC-46A 
EMP requirements are IAW MIL-STD-464.
    The Presidential fleet has been designed and tested to the levels 
outlined in MIL-STD-464 and MIL-STD-2169B or their predecessors.
    With the impending adoption of MIL-STD-3023, we anticipate that the 
EMP requirements of the next generation bomber will be in compliance 
with this standard.
    Mr. Bartlett. For each of the Services, do any of your combat 
aircraft in the operational forces or in development have 
electromagnetic pulse protection?
    General Carlisle. Yes. All military aircraft are designed and 
tested to meet standards for a number of electromagnetic hazards, 
including Electromagnetic Pulse (EMP). In addition, DoD policy is that 
mission-critical aircraft will be able to operate in a Chemical, 
Biological, Radiological, and Nuclear (CBRN) environment; this includes 
actions to ensure protection from the effects of EMP. Air Force 
strategic systems are specifically designed, maintained, and tested 
against projected EMP hazards. Testing is done at both the individual 
component level, as well as system-level (full aircraft) tests.
    An updated standard for EMP protection (MIL-STD-3023) in the final 
stages of coordination within OSD. The revised standard clarifies 
design and testing standards for all aircraft, and will address both 
developmental and operational aircraft.
    Mr. Bartlett. For each of the Services, is EMP hardening funded in 
the F-35 development program and incorporated on the F-35 production 
aircraft?
    General Carlisle. Electromagnetic pulse (EMP) hardening is funded 
in the F-35 development program and is incorporated on the F-35 
production aircraft. The F-35 Operational Requirements Document 
requires the F-35 to be hardened against man-made external 
electromagnetic environments. The F-35 is designed to be compatible 
with a nuclear EMP pulse in the exo-atmosphere (i.e. high altitude 
explosion).
    Mr. Bartlett. We understand that in an August 2011 Interim Report 
from the Defense Science Board on the Survivability of Systems and 
Assets to Electromagnetic Pulse and Other Nuclear Weapons Effects the 
Air Force non-concurred with the new aircraft EMP standard [MIL-STD 
3023] and that this has potential impacts on survivability requirements 
for new aircraft such as the F-35, tanker, next-generation bomber, and 
White House platforms. Please discuss why the Air Force non-concurred.
    General Carlisle. Initial coordination of draft MIL-STD-3023 in 
December 2010 met with Air Force disagreement over fixed design 
margins, verification testing, and applicability to new/legacy 
aircraft. Directive MILSTD language would result in increased weapon 
system development costs and impact aircraft availability rates. The 
Air Force proposed MIL-STD-3023 modifications and language changes to 
allow greater flexibility in the aircraft design process, clarify 
testing requirements and specify aircraft applicability. OSD, AT&L, 
USSTRATCOM, and DTRA have now reached consensus on updated language, 
and the new draft MILSTD will have Air Force support at the 21 November 
2011 Defense Standardization Council. The JCIDS process will remain the 
primary means of establishing HEMP testing requirements.
    Mr. Bartlett. As you know, the subcommittee has formally requested 
that the Secretary of the Air Force provide both the committee and 
General Wyatt with a comprehensive plan for modernizing the Air 
National Guard's Aerospace Control Alert mission fleet and applicable 
fighter wings before the end of this year. At this time, can you tell 
us generally what that plan would entail?
    General Carlisle. The Air Force Total Force Enterprise process 
carefully considers variables such as aircraft service life updates, 
sustainment and modernization efforts, and F-35 development and 
procurement schedules to ensure that all designated active and reserve 
component units possess the aircraft required for mission 
accomplishment. Generally speaking, as the oldest aircraft retire they 
may be replaced by F-35s or by newer aircraft made available by the bed 
down of F-35s at other bases. However, due to the current fiscal 
climate and ongoing FY12 and FY13 budget deliberations, these variables 
make accurate ANG fighter fleet modernization and recapitalization 
plans difficult to predict with reasonable fidelity at this time. In 
order to ensure accurate and well-informed analysis, the Air Force will 
provide the requested plan to the HASC following the release of the 
FY13 President's Budget.
    Mr. Bartlett. In light of the recent Senate Armed Services 
Committee and Senate Appropriations Subcommittee on Defense marks that 
would not provide funds for LAAR in fiscal year 2012, is the Air Force 
reconsidering its requirement for LAAR?
    General Carlisle. The LAAR program is a Building Partnership 
Capacity (BPC) initiative in support of SECDEF's Guidance for 
Development of the Force which procures 15 non-developmental light 
attack aircraft to prepare USAF airmen for BPC missions worldwide. The 
requirement was vetted in accordance with Joint Capability Integration 
and Development System processes, with the Capability Production 
Document validated by the Air Force Requirements Oversight Council on 
17 March 2011 and by the Joint Capabilities Board with a Joint 
Requirements Oversight Council Memorandum signed on 5 July 2011. The 
Air Force continues evaluation and prioritization of this validated 
requirement among the entire portfolio during the ongoing FY13 POM 
work.
    Mr. Bartlett. The Air Force had intended to begin retiring the U-2 
aircraft in 2006. Congress passed legislation delaying that action 
until the Secretary of Defense can certify to Congress that the 
capabilities provided by the U-2 aircraft no longer contribute to 
mitigating any gaps in intelligence, surveillance, and reconnaissance 
capabilities. Is there a replacement capability that can replicate the 
U-2 capabilities or is this a case like the SR-71, where it provided an 
unmatched capability, but we just couldn't continue to afford its 
unique capability and retired it? What are Air Force plans?
    General Carlisle. As part of the Fiscal Year 2012 (FY12) 
President's Budget, the Air Force intends to replace the U-2 with RQ-4 
Global Hawk in FY15. The RQ-4 delivers persistent, multi-intelligence, 
high altitude capability comparable to the U-2.
    There is an ability to mitigate intelligence, surveillance, and 
reconnaissance (ISR) gaps by using available and forecasted systems 
from both airborne and space based ISR portfolios.
    Mr. Bartlett. The intelligence, surveillance, and reconnaissance 
systems requirements established by the wars in Iraq and Afghanistan 
provided billions of dollars for each of the military services' ISR 
capabilities. Each of the Services have advanced significantly in the 
use of remotely piloted aircraft, ISR aircraft like the MC-12 and 
others, tethered balloons, and related payload sensor systems and 
strike capabilities. Additionally, hundreds of millions of dollars has 
been spent and is planned to be spent on individual Service technical 
demonstrations resurrecting current-day versions of blimps and related 
sensor arrays: Programs like the Army's Long-Endurance Multi-
Intelligence Vehicle, the Navy's MZ-3, and the Air Force's Blue Devil 
2. The military services have been given significant freedom to pursue 
their own developments of aircraft, remotely piloted vehicles, and 
sensors. The industrial base has benefited from that. However, vehicles 
and sensors have been allowed to proliferate, some would say 
excessively. Given a newly constrained budget environment, is there a 
DOD structure that will result in a rationalized array of systems and 
capabilities or will each Service likely be cut a given amount, with 
the result in some cases being continued unstructured proliferation of 
capabilities?
    General Carlisle. The Air Force acquires intelligence, 
surveillance, and reconnaissance (ISR) resources using the Joint 
Capabilities Integration and Development System (JCIDS). The JCIDS 
process supports Combatant Commander (COCOM) needs with Joint 
Requirements Oversight Council approved requirements documents.
    Air Force develops ISR systems to support the Global Force 
Management Allocation Plan which provides ISR sourcing recommendations 
in response to COCOM emergent requests.
    The Office of the Under Secretary of Defense (Intelligence) 
carefully reviews and provides guidance to service ISR planning and 
programming efforts.
    Mr. Bartlett. In the United States during Hurricane Katrina and in 
meeting other Federal requirements, there was difficulty gaining FAA 
approval for remotely piloted vehicle operations in U.S. airspace. What 
is the status of remotely piloted aircraft being able to operate 
independently in U.S. airspace?
    General Carlisle. The Air Force is addressing the major issues that 
will enable Unmanned Aircraft Systems (UAS) integration into national 
airspace through a joint effort led by the DOD UAS Task Force. The UAS 
Task Force serves as DOD's advocate, in concert with inter-agency 
efforts to shape the regulatory policies, procedures, certification 
standards and technology development activities that are critical to 
the integration of the Department's remotely piloted aircraft into the 
National Airspace System (NAS). The Task Force has made solid progress 
on both short-term and long-term solutions by developing the DOD 
Airspace Integration Plan and the Joint Concept of Operations (CONOPS) 
for UAS Airspace Integration, which guides development of DOD policy 
and Service CONOPS development.
    The Air Force remains committed to achieving safe and efficient 
operations of remotely piloted aircraft within the NAS as quickly as 
technological and regulatory improvements will allow. We are closely 
engaged with industry, academia and Federally-Funded Research Companies 
to leverage both technology and aviation processes that will accelerate 
this effort as much as possible.
    Mr. Bartlett. The Air Force announced its intentions to 
competitively bid the Common Vertical Lift Support Platform (CVLSP) and 
the Combat Rescue Helicopter (CRH) separately. Is it still the 
intention of the Air Force to replace its aged UH-1N with a right-
sized, affordable aircraft to perform the non-combat, domestic CVLSP 
missions and separately acquire a bigger, more robust combat capability 
for CRH?
    General Carlisle. Air Force intends to replace the UH-1N fleet 
through a full and open competition for a Common Vertical Lift Support 
Platform. CRH requirements drive the need for a more robust capability 
than CVLSP to ensure combat requirements are met. The CRH will also be 
a full and open competition but may not necessarily result in a bigger 
helicopter.

    Mr. Bartlett. Please describe the updated acquisition strategy for 
the Light Attack Armed Reconnaissance Aircraft (LAAR) aircraft. Has the 
acquisition strategy been fully approved and finalized for this 
program?
    General Lindell. The LAAR program is seeking to leverage 
efficiencies from the Light Air Support (LAS) effort expected to 
complete source selection 1QFY12. As a result, the acquisition strategy 
for the LAAR aircraft is currently on hold awaiting the LAS Milestone C 
decision. Additionally, as a FY12 new start program, funding is not 
available due to continuing resolution rules and Congressional marks to 
the program. Congressional marks, still pending conference, are 
summarized below.

    FY12 Congressional Marks:

        <bullet>  HASC: Language would limit FY12 Aircraft Procurement 
        authority until:

                1.   Joint Requirements Oversight Council validates the 
                requirements to address the capabilities gap

                2.   Under Secretary of Defense for Acquisition, 
                Technology, and Logistics (USD AT&L) approves the 
                acquisition strategy

        <bullet>  SASC: Reduction of all $158.5M FY12 Aircraft 
        Procurement funding

        <bullet>  HAC: Supported the President's Budget

        <bullet>  SAC: Reduction of all $158.5M Aircraft Procurement 
        and all $23.7 Research, Development, Testing and Evaluation 
        FY12 funding.

                                  <all>

</pre></body></html>
